Nos. 20-6570 and 20A110
IN THE SUPREME COURT OF THE UNITED STATES
BRANDON BERNARD,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
** CAPITAL CASE **
EXECUTION IS SCHEDULED FOR THURSDAY, DEC. 10, 2020
AT 6:00 P.M. EASTERN TIME
On Petition for Writ of Certiorari
to the United States Court of Appeals for the Fifth Circuit
CERTIFICATE OF SERVICE
I, Robert C. Owen, a member of the Bar of this Court, certify that on this 10th
day of December, 2020, one copy of Petitioner’s Reply in Support of Petition for Writ
of Certiorari and Emergency Application for Stay of Execution was sent by prepaid
Federal Express courier to:
Office of the Clerk
Supreme Court of the United States
1 First St., NE
Washington, D.C. 20543
I further certify that on the same date, with the consent of counsel for the
government, one copy of the document was served electronically upon counsel for the
government at the addresses listed below.
1

2

Joseph H. Gay, Jr.
Appellate Chief
Office of the United States Attorney
Western District of Texas
601 N.W. Loop 410, Suite 600
San Antonio, Texas 78216
(210) 384-7090
joseph.gay@usdoj.gov
Matthew Guarnieri
Assistant to the Solicitor General
Office of the Solicitor General
Room 5614, Department of Justice
950 Pennsylvania Avenue N.W.
Washington, D.C. 20530-001
(202) 514-4063
supremectbriefs@usdoj.gov
I further certify that all parties required to be served have been served.
Respectfully submitted,

ROBERT C. OWEN, ESQ.
Counsel of Record
Member, Supreme Court Bar
Law Office of Robert C. Owen, LLC
53 W. Jackson Blvd., Ste. 1056
Chicago, Illinois 60604
Tel. (512) 577-8329
robowenlaw@gmail.com

3

